CERTIFICATE OF COMPLIANCE

RENALDO DEMARQUIS METCALF,

Petitioner

UNITED STATES OF AMERICA

Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 4,835 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 17, 2021

LOUIS C. ALLEN III
Federal Public Defender

Ata 4 YW CLT,
John A. Duberstein
Assistant Federal Public Defender
Counsel of Record for Petitioner
301 N. Elm St., Suite 410
Greensboro NC 27401
(336) 333-5455
